=>
|

C@OQCKLE

Legal Briefs

Est. 1923

E-Mail Address:

2311 Douglas Street
contact@cocklelegalbriefs.com

Omaha, Nebraska 68102-1214

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-1332

ERIC D. SPEIDELL, ET AL.,
Petitioners,
v.
UNITED STATES OF AMERICA, THROUGH ITS
AGENCY OF THE INTERNAL REVENUE SERVICE,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 2099 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this Ist day of June, 2021.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska Kiva A Chk
f RENEE J. GOSS 0. Hex Ze if Duda i

My Comm. Exp. September 5, 2023

 

Notary Public Affiant 41058
